          Audit Report



     Individuals Hiding
Self-Employment Income to
Receive Disability Insurance
          Benefits




    A-07-12-11268| January 2013
MEMORANDUM


Date:      January 11, 2013                                                    Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Individuals Hiding Self-Employment Income to Receive Disability Insurance Benefits
           (A-07-12-11268)

           The attached final report presents the results of our audit. Our objective was to identify
           individuals receiving Disability Insurance benefits who participated in self-employment
           activities and concealed the income by reporting it under another person’s Social Security
           number.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Summary of Individuals Hiding Self-Employment Income to
Receive Disability Insurance Benefits
A-07-12-11268
January 2013

Objective                                 Our Findings

Our objective was to identify             We found that 5 (10 percent) of the 50 beneficiaries we reviewed
individuals receiving Disability          were engaged in self-employment activities and concealed their
Insurance (DI) benefits who               income by reporting it under their spouses’ SSNs. Of these five
participated in self-employment           beneficiaries, three inappropriately received benefits totaling
activities and concealed the income by    approximately $348,000, and their auxiliaries inappropriately
reporting it under another person’s       received about $77,000. Further, we estimate that these three
Social Security number (SSN).             beneficiaries would have continued receiving benefits totaling
                                          approximately $44,000, and their auxiliaries would have received
Background                                $5,100, over a 1-year period had the SEI not been discovered.

Self-employed individuals annually        While the remaining two beneficiaries were engaged in self-
report self-employment income (SEI)       employment activities and concealed their income by reporting it
to the Internal Revenue Service. The      under their spouse’s SSN, SSA did not find that the beneficiaries
IRS then provides the Social Security     were overpaid.
Administration (SSA) this SEI
information, which is posted to SSA’s     Our Recommendations
Master Earnings File and used to
determine eligibility for retirement,     The analysis we undertook for a sample of beneficiaries was labor-
survivors, disability, and health         intensive. This analysis yielded a small number of beneficiaries
insurance benefits as well as to          actually concealing SEI. Therefore, we cannot recommend that the
calculate benefit amounts. Reporting      Agency integrate such a process into its procedures. However, we
SEI under another person’s SSN could      would be willing to work with SSA to develop a more sophisticated
make an individual appear to be           method for profiling cases where individuals are concealing SEI
eligible for DI benefits when he/she is   while receiving DI benefits
not eligible.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Beneficiaries Found Concealing Self-Employment Income......................................................2
Conclusions ......................................................................................................................................7
AGENCY COMMENTS .................................................................................................................7
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Population and Sample Results........................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Individuals Hiding Self-Employment to Receive DI Benefits (A-07-12-11268)
ABBREVIATIONS
C.F.R.               Code of Federal Regulations

DI                   Disability Insurance

IRS                  Internal Revenue Service

MBR                  Master Beneficiary File

MEF                  Master Earnings File

OI                   Office of Investigations

OIG                  Office of the Inspector General

POMS                 Program Operations Manual System

SEI                  Self-Employment Income

SGA                  Substantial Gainful Activity

SSA                  Social Security Administration

Form SSA-820         Work Activity Report – Self-Employed Person

Form SSA-821         Work Activity Report – Employee

SSN                  Social Security Number

TWP                  Trial Work Period




Individuals Hiding Self-Employment to Receive DI Benefits (A-07-12-11268)
OBJECTIVE
Our objective was to identify individuals receiving Disability Insurance (DI) benefits who
participated in self-employment activities and concealed the income by reporting it under another
person’s Social Security number (SSN).

BACKGROUND
The Social Security Administration (SSA) administers the DI program under Title II of the
Social Security Act. The DI program provides benefits to qualified disabled workers and their
dependents. 1 SSA considers an individual disabled for purposes of the DI program if he/she
cannot engage in substantial gainful activity (SGA) because of a medically determinable mental
or physical impairment. 2 Furthermore, SSA requires that beneficiaries report changes in status,
such as returning to work or earning wages. 3

Self-employed individuals annually report self-employment income (SEI) to the Internal
Revenue Service (IRS) on a Profit or Loss from Business Form (Schedule C) and Self
Employment Tax Form (Schedule SE) attached to a Federal income tax Form 1040. 4 The IRS
then provides SSA this SEI information to record on the individual’s earnings record. SSA is
responsible for maintaining individual earnings records, including wages and SEI. Wages and
SEI are posted to SSA’s Master Earnings File (MEF) and used to determine eligibility for
retirement, survivors, disability, and health insurance benefits as well as to calculate benefit
amounts. Reporting SEI under another person’s SSN could make an individual appear to be
eligible for DI benefits when he/she is not eligible.

We initiated this review to identify individuals who were receiving DI benefits but who were
participating in self-employment activities and concealing their SEI by reporting it under another
person’s SSN. To meet our objective, we analyzed the earnings activities of beneficiaries and
their spouses and children using data from the MEF. Specifically, we identified beneficiaries
from one segment of the Master Beneficiary Record (MBR) who were in current pay status in
May 2007 and had reported SEI within 2 years before they were approved for DI benefits. In
addition, the beneficiaries had a spouse or child who had a significant increase in SEI after the




1
    The Social Security Act §§ 201 et seq., 42 U.S.C. §§ 401 et seq.
2
  20 C.F.R. § 404.1572 indicates that SGA is work activity that involves significant physical or mental activities and
is done for pay or profit (or is of a type generally performed for pay or profit). See also SSA, POMS, DI 24001.001
(May 13, 1999).
3
    20 C.F.R. § 404.1588(a)(2).
4
 Department of the Treasury, Internal Revenue Service (2011). Tax Guide for Small Business (Publication No.
334). Chapter 1.




Individuals Hiding Self-Employment to Receive DI Benefits (A-07-12-11268)                                            1
beneficiary was approved for DI benefits. 5 Our analysis identified 585 beneficiaries who were
potentially engaged in self-employment activities after they were approved for DI benefits and
concealed their income by reporting it under another person’s SSN.

From the 585 beneficiaries, we selected a sample of 50 for detailed analysis. Based on the
results of our analysis, we referred 20 of the 50 beneficiaries to our Office of Investigations (OI)
to determine whether they had, in fact, continued engaging in self-employment activities after
they were approved for DI benefits and concealed their income by reporting it under another
person’s SSN.

RESULTS OF REVIEW
We reviewed a sample of 50 beneficiaries who reported SEI before they were approved for DI
benefits and had a spouse or child who reported SEI after the beneficiary was approved. Our
review did not find any instances where beneficiaries concealed SEI by reporting it under a
child’s SSN. However, our review found that 5 (10 percent) of the 50 beneficiaries were
engaged in self-employment activities and concealed their income by reporting it under their
spouse’s SSN. Of these five, we determined that three beneficiaries received improper payments
of $348,000, and their auxiliaries received an additional $77,000. 6

Beneficiaries Found Concealing Self-Employment Income
Beneficiary 1: Before he was approved for DI benefits in 1997, the beneficiary operated an
awards production business. After he was approved for DI benefits, he did not report SEI.
However, his spouse, who had not previously reported SEI, started reporting SEI (see Table 1).




5
    See Appendix A for scope and methodology.
6
    See Appendix B for population and sample results.




Individuals Hiding Self-Employment to Receive DI Benefits (A-07-12-11268)                              2
Table 1 Beneficiary 1 Reported SEI 7
    Year      Beneficiary         Spouse          A Special Agent from OI found the beneficiary had
     1995      $17,000                            continued operating his awards production business.
     1996      $18,000                            The beneficiary told the Agent he had been in business
    1997*      $10,000                            for about 36 years, and the company was an Internet
                                                  business because it was more convenient. The Agent
     1998                        $31,000
                                                  also obtained evidence from witnesses who had
     1999                        $36,000
                                                  conducted business with the beneficiary.
     2000                        $23,000
     2001                        $54,000          In 2009, the beneficiary pled guilty to theft of
     2002                         $5,000          Government property and was sentenced to 5 years’
     2003                         $5,000          probation and imprisoned for 12 weekends. He was also
     2004                         $4,000          ordered to pay SSA full restitution totaling
     2005                         $9,000          approximately $151,000.
     2006
     2007                         $4,000          This beneficiary would have continued receiving
                                                  benefits totaling approximately $10,200 over a
     2008
                                                  1-year period if the SEI had not been discovered. In
 * Year beneficiary was approved for DI benefits.
                                                  addition, the beneficiary’s children would have
continued being paid approximately $5,100 in auxiliary benefits over a 1-year period.

Beneficiary 2: Before he was approved for DI benefits in 1991, the beneficiary and his spouse
operated a cleaning business. After he was approved for DI benefits, he only reported SEI in
2006. However, his spouse’s SEI almost tripled the year after the beneficiary was approved for
DI benefits. Further, the spouse continued reporting income from the business the majority of
the years from 1992 through 2010 (see Table 2). 8




7
  Operating expenses could have exceeded the revenue earned by the business. When this occurs, a loss is reported
to the IRS. Therefore, for the years SEI was not identified, it is possible the business was still active but operating at
a loss.
8
    Ibid.




Individuals Hiding Self-Employment to Receive DI Benefits (A-07-12-11268)                                               3
Table 2 Beneficiary 2 Reported SEI 9
     Year         Beneficiary             Spouse        A Special Agent from OI found that the business was
      1989                                 $6,000       still active. The Agent interviewed witnesses who
      1990            $2,000               $8,000       indicated the beneficiary worked directly with the
     1991*           $12,000               $5,000       customers arranging appointments and performing
      1992                                $13,000       billing and collection duties. He also worked directly
                                                        with the employees making all work assignments,
      1993
                                                        supervising their work, hiring and firing, and assisting
      1994                                $13,000
                                                        with cleaning jobs. The witnesses further stated the
      1995                                 $5,000       spouse was not involved with the employees or
      1996                                 $3,000       customers. When confronted, the beneficiary
      1997                                 $7,000       confessed he had been working since January 2008.
      1998
      1999                                $21,000       SSA terminated his benefits effective February 2012.
      2000                                              The beneficiary and his auxiliaries had received total
      2001                                $39,000       benefits of approximately $376,000 since the
      2002                               $162,000       beneficiary was approved for DI benefits. During the
      2003                               $182,000       period the beneficiary confessed to working, January
      2004                                $78,000       2008 through January 2012, the beneficiary received
                                                        DI benefits totaling over $79,000. However, SSA
      2005                               $154,000
                                                        identified about $65,000 as the overpayment since the
      2006           $29,000              $76,000
                                                        first 9 months of the period the beneficiary was
      2007                                $97,000       working was considered a trial work period (TWP). 10
      2008                               $128,000
      2009                               $131,000       This beneficiary would have continued receiving
      2010                               $115,000       benefits totaling approximately $20,350 over a 1-year
     * Year beneficiary was approved for DI benefits.   period if the SEI had not been discovered.

Beneficiary 3: Before he was approved for DI benefits in 1988, the beneficiary and his spouse
operated a janitorial business. After the beneficiary was approved for DI benefits, he reported
SEI in 2003, and his spouse reported SEI sporadically from 1990 through 2005 (see Table 3). 11




9
 In 1999 and 2006 through 2010, the spouse reported earning wages from a business, which the spouse owned.
Therefore, we considered the wages the same as SEI for purposes of our review.
10
  During a TWP, a beneficiary receiving DI benefits may test his/her ability to work and still be considered
disabled. SSA does not consider work performed during the trial work period as showing that the disability has
ended until the work is performed in at least 9 months (not necessarily consecutive) in a rolling 60-month period.
SSA, POMS, DI 13010.035 (July 1, 2010).
11
   Operating expenses could have exceeded the revenue earned by the business. When this occurs, a loss is reported
to the IRS. Therefore, for the years SEI was not identified, it is possible the business was still active but operating at
a loss.




Individuals Hiding Self-Employment to Receive DI Benefits (A-07-12-11268)                                               4
Table 3 Beneficiary 3 Reported SEI
 Year              Beneficiary            Spouse        Upon investigation, an OI Special Agent found the
  1986               $2,000                             business continued operating, and the beneficiary was the
  1987                                                  company’s secretary and owner. Further, the Agent
 1988*                                                  found the company employed three people.
  1989
                                                        The U.S. Attorney’s Office accepted the case for criminal
  1990                                    $10,000       prosecution in October 2008. However, the beneficiary
  1991                                                  died in July 2009 before any further action could be
  1992                                                  taken.
  1993
  1994                                     $1,000       From January 1989 through June 2009, the beneficiary
  1995                                                  received DI benefits totaling approximately $182,000. In
  1996                                     $2,000       addition, the beneficiary’s children were paid over
  1997                                                  $27,000 in auxiliary benefits.
  1998
                                                        Had he lived, this beneficiary would have continued
  1999
                                                        receiving benefits totaling approximately $13,300 over a
  2000
                                                        1-year period if the SEI had not been found. 12
  2001
  2002                                    $12,000
  2003                 $5,000              $5,000
  2004
  2005                                     $9,000
  2006
  2007
  2008
  2009
     * Year beneficiary was approved for DI benefits.



Beneficiary 4: Before he was approved for DI benefits in 1999, the beneficiary and his spouse
operated a security company and reported SEI. After he was approved for DI benefits, the
beneficiary did not report SEI. However, the spouse’s SEI more than doubled (see Table 4).




12
  Before the beneficiary’s death, the beneficiary’s children had stopped receiving benefits because they turned 18
and were not full-time students. Therefore, future benefits would not be applicable.




Individuals Hiding Self-Employment to Receive DI Benefits (A-07-12-11268)                                            5
Table 4 Beneficiary 4 Reported SEI
     Year       Beneficiary           Spouse         An OI Special Agent referred this beneficiary to SSA to
      1997        $6,000               $6,000        develop and evaluate work activity. At SSA’s request,
      1998        $7,000               $7,000        the beneficiary completed the Forms SSA-820 (Work
     1999*        $7,000               $7,000        Activity Report – Self-Employed Person) and SSA-821
      2000                            $18,000        (Work Activity Report – Employee), indicating that he
                                                     had not been working. SSA interviewed the beneficiary,
      2001                            $10,000
                                                     and he admitted he assisted his spouse in managing the
      2002                            $11,000
                                                     security company. He further admitted that he had
      2003                            $13,000        misrepresented the truth when answering the questions
      2004                            $13,000        related to work activity on the Forms SSA-820 and 821.
      2005                            $11,000
      2006                            $11,000     Although SSA confirmed the beneficiary had concealed
      2007                            $11,000     his SEI, SSA policies provide that the work activity can
      2008                            $13,000     be considered a trial work period if the beneficiary is not
 * Year beneficiary was approved for DI benefits.
                                                  convicted in Federal court. 13 SSA further determined
                                                  that the beneficiary had not continued engaging in SGA.
SSA continued the beneficiary’s DI benefits and did not record an overpayment.

Beneficiary 5: Before he was approved for DI benefits in 2002, the beneficiary operated a
roofing business and reported SEI. After he was approved for DI benefits, the beneficiary did
not report SEI. However, his spouse, who had not previously reported SEI, started reporting SEI
(see Table 5).

Table 5: Beneficiary 5 Reported SEI

 Year        Beneficiary            Spouse         An OI Special Agent met with the beneficiary at his place
  2000        $15,000                              of business. The beneficiary told the Agent that he was the
  2001        $21,000                              direct supervisor of the roofing business, and he performed
 2002*                              $10,000        all bids and collections. He indicated that he had a lot of
                                                   work ongoing, and there was a 3- to 6-week delay in
  2003                              $10,000
                                                   starting any new jobs. However, he asserted that his wife
  2004                              $13,000
                                                   was the actual owner of the company.
  2005                              $17,000
  2006                              $19,000        We referred the beneficiary to SSA to develop and evaluate
  2007                              $17,000        work activity. Although SSA found the beneficiary
* Year beneficiary was approved for DI benefits.   concealed SEI under his wife’s SSN, SSA determined that
                                                   he did not engage in SGA.




13
     20 C.F.R. § 404.471 and SSA, POMS, DI 11006.015 (December 30, 2010).




Individuals Hiding Self-Employment to Receive DI Benefits (A-07-12-11268)                                    6
CONCLUSIONS
In summary, we found that 5 (10 percent) of the 50 beneficiaries we reviewed were engaged in
self-employment activities and concealed their income by reporting it under their spouses’ SSNs.
Of these five beneficiaries, three inappropriately received benefits totaling approximately
$348,000, and their auxiliaries inappropriately received about $77,000. Further, we estimate that
these three beneficiaries would have continued receiving benefits totaling approximately
$44,000, and their auxiliaries would have received $5,100 over a 1-year period had the SEI not
been discovered.

While the remaining two beneficiaries were engaged in self-employment activities and concealed
their income by reporting it under their spouse’s SSN, SSA did not find that the beneficiaries
were overpaid.

The analysis we undertook for a sample of beneficiaries was labor-intensive and yielded a small
number of beneficiaries who were actually concealing SEI. Therefore, we cannot recommend
that the Agency integrate such a process into its procedures. However, we would be willing to
work with SSA to develop a more sophisticated method for profiling cases where individuals are
concealing SEI while receiving DI benefits.

AGENCY COMMENTS
SSA did not have any formal comments (see Appendix C).




Individuals Hiding Self-Employment to Receive DI Benefits (A-07-12-11268)                       7
                                       APPENDICES




Individuals Hiding Self-Employment to Receive DI Benefits (A-07-12-11268)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our audit objective we:

•   Reviewed applicable Federal laws and regulations and pertinent sections of the Program
    Operations Manual System related to work activity and continuing disability reviews for
    disabled beneficiaries.

•   Obtained data extracts of

         Disability Insurance (DI) beneficiaries, along with spouse and children information,
          from one segment of the Master Beneficiary Record (MBR) 1 who were in current pay
          status in May 2007 and

         earnings for the beneficiaries, spouses, and children from the Master Earnings File
          (MEF).

From these files, we identified 1,273 beneficiaries who reported self-employment income (SEI)
within 2 years of being approved for DI benefits.

    •   Conducted analysis to identify 585 beneficiaries from 1 segment of the MBR who
        reported SEI within 2 years of being approved for DI benefits and had a spouse or child
        who

             had a 25-percent or greater increase in SEI after the beneficiary was approved for
              DI benefits and reported SEI was at least $10,000 or

             had not reported SEI for 1 year but reported at least $10,000 the following year.

    •   Conducted detailed analysis for a random sample of 50 of the 585 beneficiaries in 1
        segment of the MBR to identify beneficiaries who appeared to have shifted their SEI to a
        spouse or child (see Appendix B for detailed analysis).

    •   Referred 20 of the 50 sampled beneficiaries to our Office of Investigations to determine
        whether the beneficiaries were engaging in self-employment activities.

The entity reviewed was SSA’s Office of Operations. We conducted our audit in Kansas City,
Missouri, in February and March 2012. We determined the data used for this audit were
sufficiently reliable to meet our audit objective. We conducted our audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and


1
 The MBR is divided into 20 segments, with each segment representing 5 percent of all records. Where necessary,
we also obtained spouse information from the Modernized Claim System for primary DI beneficiaries who were
married and did not have a spouse annotated on their MBR.




Individuals Hiding Self-Employment to Receive DI Benefits (A-07-12-11268)                                   A-1
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.




Individuals Hiding Self-Employment to Receive DI Benefits (A-07-12-11268)                       A-2
Appendix B – POPULATION AND SAMPLE RESULTS
We identified 585 beneficiaries from 1 segment of the Master Beneficiary Record (MBR) who
reported self-employment income (SEI) within 2 years before their Date of Disability Onset. In
addition, these beneficiaries had a spouse or child who had

•   a 25-percent or greater increase in SEI after the beneficiary was approved for DI benefits,
    and the reported SEI was at least $10,000 or

•   not reported SEI for 1 year but reported at least $10,000 the following year.

We conducted detailed analysis of a sample of 50 of the 585 beneficiaries who had reported SEI
before being approved for DI benefits to identify possible indicators of shifting income from the
beneficiary to a spouse or child. Factors that we considered included

•   the child’s age,

•   SEI reporting patterns,

•   wage reporting patterns for the beneficiary versus the spouse/child, and

•   the number of years SEI over $10,000 was reported for the spouse/child.

We also conducted in-depth analysis of SSA’s systems, LexisNexis, and the Internet to
determine whether the beneficiaries were associated with a business where they could have been
earning SEI.

Based on the results of our analysis we referred 20 of the 50 sampled beneficiaries to our Office
of Investigations (OI) for review. Of these 20 beneficiaries, OI confirmed that 5 had engaged in
self-employment activities after being approved for DI benefits. However, the beneficiaries
reported the income under their spouses’ SSNs.

We identified five beneficiaries who participated in self-employment activities and concealed the
income by transferring it to another person. These five beneficiaries received benefits totaling
over $496,000. Further, their auxiliary beneficiaries received benefits totaling over $141,000.

Three of the five beneficiaries were inappropriately paid benefits totaling approximately
$348,000. Further, auxiliary beneficiaries on their records inappropriately received benefits
totaling approximately $77,000.

We estimate that three of the five beneficiaries would have continued receiving benefits totaling
approximately $44,000 over a 1-year period had the SEI not been found. Further, their
auxiliaries would have continued receiving benefits totaling approximately $5,100.




Individuals Hiding Self-Employment to Receive DI Benefits (A-07-12-11268)                         B-1
                      Table B-1: Benefits for Beneficiaries Concealing SEI

                                                 Benefits Inappropriately
  Beneficiary            Benefits Paid                     Paid                  Future Benefits
   Number          Beneficiary     Auxiliary     Beneficiary     Auxiliary   Beneficiary    Auxiliary
      1              $100,372        $49,747       $100,372       $49,747        $10,164       $5,088
      2               $79,326             $0         $65,408            $0       $20,350            $0
      3              $181,994        $27,236       $181,994       $27,236        $13,286            $0
      4               $75,231        $34,551               $0           $0             $0           $0
      5               $59,091        $29,528               $0           $0             $0           $0
    Total            $496,014       $141,062       $347,774       $76,983        $43,800       $5,088




Individuals Hiding Self-Employment to Receive DI Benefits (A-07-12-11268)                          B-2
           Appendix C – AGENCY COMMENTS




                                            SOCIAL SECURITY

 MEMORANDUM


Date:      December 21, 2012                                                           Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Individuals Hiding Self-Employment Income to
           Receive Disability Insurance Benefits” (A-07-12-11268)—INFORMATION


           Thank you for the opportunity to review the draft report. We have no comments at this time.
           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




           Individuals Hiding Self-Employment to Receive DI Benefits (A-07-12-11268)                       C-1
Appendix D – MAJOR CONTRIBUTORS
Mark Bailey, Director, Kansas City Audit Division

Shannon Agee, Audit Manager

Nick Moore, Auditor

Kenneth Bennett, Audit Data Specialist

Charles Zaepfel, IT Specialist

Brennan Kraje, Statistician




Individuals Hiding Self-Employment to Receive DI Benefits (A-07-12-11268)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
